No.
IN THE
SUPREME COURT OF THE UNITED STATES

OTHA S. HAMILTON - Petitioner;
v.

DENNIS REAGLE- Respondent(s);

PROOF OF SERVICE
I, Otha S. Hamilton, do swear or declare that on this date, December 14, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS AND PETITION FOR WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the U.S. Mail properly
addressed to each party and with sufficient first-class postage prepaid.
The names and addresses of those served are as follows:
Indiana Attorney General, IGC-South, 5th Floor.
302 W. Washington St. Indianapolis, IN. 46204-2770
Attn: Andrew A. Kobe

RECEIVED
DEC 2 9 2020
supreme'coum-LutsK

Otha S. Hamilton
Petitioner / pro se
DOC #217667
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, Indiana. 46064-9001

